WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.
v.
(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
□ Please enter my appearance as Counsel of Record for all respondents.
□ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

□ I am a member of the Bar of the Supreme Court of the United States.
□ I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be ﬁled by a Bar member.
Digitally signed by Sean A. Kirkpatrick
DN: cn=Sean A. Kirkpatrick, o=Pennsylvania Office of Attorney General, ou=Appellate Litigation Section,
email=skirkpatrick@attorneygeneral.gov, c=US
Date: 2020.06.08 11:09:18 -04'00'

Sean A. Kirkpatrick
Signature
Date:
(Type or print) Name

Sean A. Kirkpatrick, Senior Deputy Attorney General
□ Mr.

Firm

□ Ms.

□ Mrs.

□ Miss

Office of Attorney General, Appellate Litigation Section

Address

15th Floor, Strawberry Square

City & State
Phone

Harrisburg, PA

717-705-2331

Zip
Email

17120

skirkpatrick@attorneygeneral.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC:

